la
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or after
Jan. 1,2007. See also U.S.Ct. of Appeals 3rd Cir. App. I,
TOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Kevin TUNG, on behalf of himself and all others
similarly situated, Appellant
v.
SUPERIOR COURT OF NEW JERSEY; Stuart
Rabner, Chief Justice of the Supreme Court of New
Jersey; Glenn A. Grant, Acting Administrative Director
of the New Jersey Courts; Carmen Messano, Presiding
Judge for Administration for the Appellate Division;
John/Jane Doe, Administrators of the New Jersey
Superior Court
No. 20-3348
Submitted Under Third Circuit L.A.R. 34.1(a) on July 9,
2021(Filed: July 28,2021)
On Appeal from the United States District Court for the
District of New Jersey (D.C. No. 3:19-cv-00871), District
Judge: Honorable Michael A. Shipp
Attorneys and Law Firms
Kevin K. Tung, Esq., Flushing, NY, Pro Se.
John Regina, Esq., Office of Attorney General of New
Jersey, Newark, NJ, for Defendant.
Robert J. McGuire, Esq., Office of Attorney General of
New Jersey, Division of Law, Trenton, NJ, John Regina,

2a
Esq., Office of Attorney General of New Jersey,
Newark, NJ, for Defenclants-Appellees.
Before: AMBRO, JORDAN, and BIBAS, Circuit Judges
OPINION*
BIBAS, Circuit Judge.
Not every wrong has a federal remedy. A state
court criticized lawyer Kevin Tung. Tung claims that
this criticism violated due process. But he is suing New
Jersey officials in their official capacities, so he must
allege that they continue to violate his rights. Because
he has not done so, we will affirm the District Court's
dismissal.
In 2009, Tung represented Janet Fou in her New
Jersey divorce case—or so it seemed. Two years later,
Janet challenged the divorce in New Jersey state court,
claiming that Tung had worked for her ex-husband Joe
all along. Even though Tung had represented her, he had
been hired by Joe and dealt mostly with him. And though
she had signed four agreements with Joe written in
Mandarin, she claimed, the English property settlement
filed by Tung differed substantially from the Chinese
originals.
The judge hearing Janet's challenge sided with
her and voided the original judgment. Ruling from the
bench, he slammed Tung, suggesting that by
“representing] both sides,” he had failed in his duty to
protect Janet. App. 8. The “illusion of independent
counsel,” he found, was “grossly misleading.” Id, And he
observed that submitting the property settlement was
“a fraud upon the court.” Id. But the judge never said
whether the fraudster was Tung or Joe.

3a
Tung, a New Yorker, now sues New Jersey's
Chief Justice and other New Jersey court administrators
in their official capacities. Before the judge lambasted
him, he claims, he should have had a chance to defend
himself. He seeks a declaration that the judge's
criticisms were unconstitutional and further seeks an
injunction mandating safeguards before future judicial
criticisms.
The District Court dismissed, ruling that
sovereign immunity shields the defendants. We review
de novo. Maliandiv. Montclair State Univ., 845 F.3d 77,
82 (3d Cir. 2016).
The Eleventh Amendment bars federal lawsuits
“against one of the United States by Citizens of another
State.” U.S. Const, amend. XI. Out-of-staters cannot
dodge this bar by suing state officials in lieu of the states
themselves. Ex parte New York, 256 U.S. 490,500-01,41
S.Ct. 588, 65 L.Ed. 1057 (1921). Defendants are officials
of the State of New Jersey. They are sued by Tung, a
New Yorker. So the text of the Amendment commands
dismissal.
True, a “narrow exception” lets plaintiffs sue
state officials to stop ongoing violations of federal law.
Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 76, 116
S.Ct. 1114, 134 UEd.2d 252 (1996); sec Ex parte Young,
209 U.S. 123, 155-56, 28 S.Ct. 441, 52 L.Ed. 714 (1908).
But this case does not fit that exception. The judge
criticized him years ago. Any violation is over and done.
Tung claims the violation is ongoing because the
criticism still stings. Yet Ex parie Young’s exception is
limited to ongoing violations, not ongoing effects.
Imagine that the police unconstitutionally searched a
man's home, sparking gossip among his nosy neighbors.
They might shun him for a time, even after he was
cleared of all charges. No one would say that the police

4a
continue to search . his home just because his
embarrassment endures. So too here. Even if Tung feels
lasting shame, any deprivation of process ended years
ago.
Finally, Tung faults the defendants for not
adopting safeguards to prevent similar situations in the
future. But he does not allege that he is likely to be
criticized again. Because no alleged violation is ongoing,
Ex parte Young cannot rescue him from the Eleventh
Amendment’s bar. So we will affirm the District Court's
dismissal.
Footnotes
*This disposition is not an opinion of the full Court and,
under I.O.P. 5.7, is not binding precedent.

5a
NOT FOR PUBLICATION
United States District Court, D. New Jersey.
Kevin Kerveng TUNG, Plaintiff,
v.
Stuart RABNER, in his official capacity as Chief
Justice of the Supreme Court of the State of New
Jersey, et al., Defendants.
Civil Action No. 19-871 (MAS)(TJB)
Signed 11/10/2020
Attorneys and Law Firms
Kevin Kerveng Tung, Flushing, NY, for Plaintiff.
John Francis Regina, Office of the Attorney General,
Trenton, NJ, for Defendants.
MEMORANDUM OPINION
Shipp, District Judge
This matter comes before the Court upon
Defendants Stuart Rabner, Chief Justice of the New
Jersey Supreme Court, Glenn A. Grant, Administrative
Director of the New Jersey Courts, and Carmen
Messano, Presiding Judge of the New Jersey Superior
Court, Appellate Division's (“Defendants”) Motion to
Dismiss Plaintiff Kevin Kerveng Tung's (“Tung” or
“Plaintiff”) Amended Complaint. (ECF No. 30.) Plaintiff
opposed. (ECF No. 31.) The Court has carefully
considered the parties’ submissions and decides the
matter without oral argument pursuant to Local Rule
78.1. For the reasons set forth below, Defendants*
Motion to Dismiss is granted.

6a
I. BACKGROUND Tung is an attorney licensed to practice law in the
state of New Jersey, (Am. Compl. f 13, ECF No. 20.) In
2009, Tung represented Mrs. Janet Fou in a no-fault
divorce proceeding with her husband, Mr. Joe Fou. (Id.
1 21.) According to Tung, during this representation, he
“prepared an English [language property [settlement
[ajgreement for the Fous.” (Id. f 22.) Tung maintains
that at the time of the representation, he understood
that “the only binding [property [settlement
[ajgreement was going to be the one [he] was going to
prepare” for the Fous. (Id. t 64.) Tung acknowledges,
however, that the Fous asked him to notarize, but not
review, a “Chinese Agreement” between Mr. and Mrs.
Fou “regarding their divisions of properties.” (Id. ^ If 22,
71.)
Two years after the conclusion of the divorce
proceeding, Mrs. Fou moved to set aside the final
judgment of divorce. (Id. | 29.) With the assistance of
new attorneys, Mrs. Fou argued that there were actually
four Mandarin agreements between the couple. (Id. If
51.) Mrs. Fou alleged that the property settlement
prepared by Tung differed substantially from these
documents. (Id. 1f 55.) According to Mrs. Fou, Tung's
services were procured by her husband and Tung dealt
largely with Mr. Fou rather than with her, his actual
client. (Janet Fou Cert, f 16, Ex. 5 to Am. Compl., ECF
No. 20-1.) When moving to reopen the divorce
proceedings, Mrs. Fou maintained that she “questioned]
the appropriateness of Mr. Tung's representation of me
and [Mr. Fou's] role in orchestrating my execution of an
English [ajgreement, which failed to mention our
previously] executed agreements.” (Am. Compl. If 40.)

7a
In his Amended Complaint, Tung presents a
different version of events. (Id. f 22.) Tung contends that
he was only made aware of one of the Mandarin
agreements. According to Tung, Mrs. Fou misled him
with respect to the agreements and the couple's financial
status because she was attempting to commit Medicaid
fraud. (Id. HH 22-23.) Tung does not, however, appear to
contest the fact that he largely interacted with and
received information from Mr. Fou, even though Mrs.
Fou was his client. (See Sept. 12,2012Hr'gTr. 65:21-66:4,
Ex. 2 to Am. Compl., ECF No. 20-1.) Tung testified at
the reopening proceeding pursuant to a subpoena but he
did not otherwise take part in these proceedings. (Am.
Compl. li 63.)
On September 12,2012, the New Jersey Superior
Court accepted Mrs. Fou's version of events and granted
the motion to set aside the final judgment of divorce. (Id.
11 44.) While ruling from the bench, the judge made
several negative comments about Tung's conduct in the
divorce action. The judge suggested that Tung had
completely failed in his duty to provide independent
representation to Mrs. Fou. (See Sept. 12, 2012 Hr'g Tr.
64:13-65:5, 69:19-70:12 (suggesting that Tung
“represented both sides” violating “one of the most basic
rules of an attorney/client relationship” and that “there
[was] a complete failure ... to have independent counsel
and there's an illusion of independent counsel which is
grossly misleading”).) The court also found that the
retainer agreement between Tung and Mrs. Fou
“doesn't even begin to satisfy” New Jersey state rules
on retainer agreements for attorneys representing a
party in a matrimonial dispute. (Id. at 66:5-13.) The court
went on to find that the property settlement's
submission in the divorce proceeding amounted to “a
fraud upon the court.” (Id. at 71:2-7.) The court did not,

8a
however, specifically state who committed this fraud. In
fact, the court appears to have largely placed blame for
this misrepresentation on Mr. Fou. The state court found
that Mr. Fou was “the conductor or maestro of... these
proceedings.” (Id. at 69:9-18.) Furthermore, at no point
in the ruling did the judge specifically note that he was
sanctioning Tung. Nor did the court make, a factual
finding that Tung's conduct was sanctionable. On July 8,
2016, New Jersey's Appellate Division affirmed the trial
court's decision to set aside the final judgment of divorce.
(Am. Compl. KK 54, 81.) The Appellate Division also
referred Tung to the Office of Attorney Ethics for
further investigation into his conduct in the divorce
action. (Id. K 81.) This matter was still pending when
Tung filed the present action. (Id.)
Mrs. Fou then sued Tung for malpractice in New
Jersey Superior Court. (Id. K 78.) Plaintiff participated
in these proceedings as the defendant. (Id. UK 78-86
(describing Tung's motion practice, pre-trial conference
participation, and appeals in the Fou v. Tung
malpractice action).) Tung alleges that during the
malpractice action, the opinion from the divorce action
was used against him over his objection. (Id. KK 78-86.)
Tung also accused Mrs. Fou and her new attorneys of
making numerous misrepresentations to the court to
secure the reopening of the final judgment of divorce.
(See generally id. KK 24-62.) Notwithstanding these
contentions, on, April 25, 2018, a jury in the Superior
Court malpractice action found Tung liable for
malpractice and awarded Mrs. Fou a $500,000 judgment.
(Id. K 85.)
Following the malpractice jury verdict and years
after he was subpoenaed to testify in the reopened
divorce proceedings, Tung attempted to intervene as a
party to the divorce proceedings at both the appellate

9a
and trial levels. (Id. 1fH 87-88.) The Appellate Division
denied Tung's motion to intervene on November 30,
2018. (Id. 1) 87.) The Superior Court denied his motion to
intervene on December 18,2018. (Id. 88.)
In 2019, Tung filed the instant action against the
Superior Court of New Jersey under 28 U.S.C. § 2201.
Tung argued that the Superior Court violated his
substantive and procedural due process rights when it
vacated the final judgment of divorce. (Compl. H 1, ECF
No. 1.) Moreover, Tung maintained that the Appellate
Division violated his substantive and procedural due
process rights when it affirmed the trial court's decision
to set aside the final judgment of divorce without
providing him an opportunity to intervene or present a
defense. Tung also maintained that this allegedly
unconstitutional action tainted his malpractice case and
rendered him unable to receive a fair trial. (Id. H 69.) In
a November 26, 2019 Opinion, Chief Judge Wolfson
dismissed the initial Complaint on sovereign immunity
grounds. (Nov. 26,2019 Op. 6-8,12, ECF No. 17.) While
dismissing the initial Complaint, Judge Wolfson granted
Tung leave to file an amended complaint in which he
proposed to seek prospective relief from state officers
pursuant to the Ex Parte Young doctrine. (Id. at 10-11.)
Tung has since filed an Amended Complaint. The
Amended Complaint brings similar claims as the initial
Complaint, although it names judges and court
administrators as Defendants instead of the New Jersey
Superior Court. The named Defendants are the Chief
Justice of the New Jersey Supreme Court, the Acting
Administrative Director of the New Jersey Courts, and
the Presiding Judge for Administration for the
Appellate Division. (Am. Compl.
1-2.) Tung contends
that these three officials are responsible for overseeing
the administration of the New Jersey court system and,

10a
therefore, are responsible for the policies that injured his
substantive and procedural due process rights. {Id.) In
his Amended Complaint, Tung seeks a declaratory
judgment that the decisions and opinions reopening the
divorce case violated his due process lights, along with
an injunction removing them.from the public domain.
{Id. at 40-42.) Tung also seeks an injunction requiring
“the New Jersey State court systemsf ] to implement
pertinent substantive and procedural due process
procedures” to ensure "plaintiff or attorneys similarly
situated ... [are] given an opportunity to defend
themselves in the future”- when matters of attorney
discipline come up in cases where they are not a party to
the action. {Id.) Defendants filed a motion to dismiss
under Federal Rule of Civil Procedure 12(b)(1) on the
grounds of Eleventh Amendment immunity, the RookerFeldman doctrine, and Younger abstention. (Defs/
Moving Br. 2, ECF No. 30-4.)
II. LEGAL STANDARD
Under Federal Rule of Civil Procedure 12(b)(1),
“a court must grant a motion to dismiss if it lacks
subject-matter, jurisdiction to hear a claim.” In re
Schering Plough Cor/). IntronfTemodar, 678 F.3d 236,
243 (3d Cir. 2012). Eleventh Amendment immunity may
be invoked through a 12(b)(1) motion because Eleventh
Amendment immunity deprives the court of subject
matter jurisdiction. Blanciak v. Allegheny Ludlum
Corp., 77 F.3d 690, 694 n.2 (3d Cir. 1996) (citing
Pennhurst State Sell. & Hasp. v. Halderman, 465 U.S.
89, 98-100 (1984)). Because Eleventh Amendment
immunity is an affirmative defense, however, the burden
of demonstrating the immunity lies with the defendant
who is asserting it. Carter v. City of Philadelphia, 181

11a
F.3d 339, 347 (3d Cir. 1999). Where, as here, the State
“presents] a facial challenge to the Court's subject
matter jurisdiction, ‘the court must only consider the
allegations of the complaint and documents referenced
therein and attached thereto, in the light most favorable
to the plaintiff/ ” Rich v. New Jersey, No. 14-2075, 2015
WL 2226029, at *5 (D.NJ. May 12, 2015) (quoting Gould
Elecs., Inc. v. United States, 220 F.3d 169, 176 (3d Cir.
2000)).
III. DISCUSSION
A. The Ex Parte Young Exception to Eleventh
Amendment Immunity Does Not Apply to Tung's
Claims
The Eleventh Amendment provides that “[t]he
Judicial power of the United States shall not be
construed to extend to any suit in law'or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State/’ U.S. Const, amend. XI.
The Amendment provides “states with immunity from
suit ... in federal court not only from suits brought by
citizens of other states, but also from suits brought by
their own citizens.” Gattuso v. N.J. D&p't of Human
Sews., 881 F. Supp. 2d 639, 645 (D.NJ. 2012) (citing
Hans v. Louisiana, 134 U.S. 1, 13-14 (1890)). This
immunity extends to suits against state officers acting in
their official capacity. Pennsylvania Fed'n of
Sportsmen's Clubs, Inc. v. Hess, 297 F.3d 310, 323 (3d
Cir. 2002). Defendants maintain that Tung's claims are
barred by the Eleventh Amendment. (Defs/ Moving Br.
5-9.)

12a
In response to the Defendants' Motion to Dismiss.
Tung asserts an exception to the State's Eleventh
Amendment immunity: the Ex Parte Young doctrine.
(Pl/s Opp'n Certification (“Pl/s Celt.*') 7-8, EOF No. 31.),
Under Ex Parte Young, “individual state officers can be
sued ... for prospective injunctive and declaratory relief
to end continuing or ongoing violations of federal law."
MCI Telecom Corp. v. Bell Atl. Pa. 271 F.3d 491,506 (3d
Cir. 2001) (citing Ex Parte Young 209 U.S. 123 (1908)).
Ex Parte Young is based on the theory that a state
officer has no authority to violate the federal law and
thus, when the official does so, even pursuant to state
law, the official “is stripped of his official or
representative character and becomes subject to the
consequences of his individual conduct." Id.
The Supreme Court has found that the Ex Parte
Young exception should not be given an expansive scope.
Pennlvurst, 465 U.S. at 102-03. For Ex Parte Young to
apply, a suit must seek both prospective relief and a
remedy to an ongoing or continuing violation of federal
law. Green v. Mansour, 474 U.S. 64, 68 (1985); see also
Verizon Md., Inc. v. Pub. Sen). Comm'n of Md., 535 U.S.
635, 645 (2002) (holding that whether Ex Parte Young
applied required a “straightforward inquiry into
whether the complaint alleges an ongoing violation of
federal law and seeks relief properly characterized as
prospective”); Christ the King Manor, Inc. v. Sec'y of
HHS, 730 F.3d 291,318-19 (3d Cir. 2013) (holding that Ex
Parte Young only allows suits “that seek prospective
relief to end an ongoing violation of federal law” and
finding that in making these determinations, courts
“must look to the substance rather than the form of the
relief requested" (internal quotation marks, and citations
omitted)).

13a
1. Tung Does Not Allege a Violation of Federal Law
Tung's claims fail because he cannot demonstrate
that the Defendants violated his federal rights. The
Amended Complaint directs the Court to several state
court findings made during the reopened divorce
proceedings. Tung alleges that these findings amounted
to a public reprimand rising to the level of a sanction. His
central claim is that the court found that he was involved
in a fraud on the court. (Am. Compl. U 48 (citing Sept. 12,
2012 Hr'g Tr. 71:4-7 (“I think the English agreement,
quite frankly in the way it was presented to the [cjourt,
unfortunately rises to the level of a fraud upon the
[c]ourt.”)).) Additionally, Tung argues that the state
court's finding that Mrs. Fou “was being manipulated
through this divorce process” amounted to a sanction.
(Id. H 51 (quoting Sept. 12,2012 Hr'g Tr. 71:11-15).)
As Tung correctly argues, the Third Circuit has
' held that judicial criticism against an attorney in an
opinion or order “rising to the level of a public reprimand
is a sanction” requiring the court to provide the attorney
due process before rendering such an opinion. Bowers v.
NCAA, 475 F.3d 524, 543 (3d Cir. 2007); (Am. Compl. H
61.) In Bowers, the Third Circuit held that “[wjhenever
the district court imposes sanctions on an attorney, it
must at a minimum, afford the attorney notice and
opportunity to be heard.” Bowers. 475 F.3d at 544
(internal quotation marks and citation omitted). In
Bowers, the plaintiffs attorneys were involved in a years
long litigation that involved discovery disputes and
subsequent sanctions motions against the attorneys. Id.
at 544. In the course of that litigation, the district court
clearly and “explicitly stated that [it] was sanctioning
not only [plaintiff! but also [plaintiffs] attorneys” for
their failure to properly disclose discoverable

14a
information requested by defendants. Id. As Tung notes,
the district court in Boioers “did not impose any
additional monetary or disciplinary sanctions on
[plaintiffs] attorneys beyond factual findings and
language in the actual order that the conduct of those
attorneys merited sanctions.” Id. at 542. The attorneys
appealed. Id. at 535.
The Third Circuit began its analysis by noting
that there was “some disagreement among the courts of
appeals” about precisely what kind of language in an
opinion amounted to a sanction. Id. at 543. The Third
Circuit noted, however, that “most courts agree that
mere judicial criticism is insufficient to constitute a
sanction.” Id. The court observed that the central issue
dividing the courts of appeals was whether a factual
finding that an attorney engaged in improper conduct is
itself a sanction, or whether a court must enter an
explicit order that the conduct was sanctionable. Id. The
Third Circuit found that it need not decide that issue in
Bowers because the district court clearly set out that it
intended its reprimand to act as a sanction. Id. at 544.
The Third Circuit found, accordingly, that the district
court's explicit holding that it was sanctioning the
Bowers attorneys violated the attorneys’ due process
rights, because they were denied notice and an
opportunity to be heard. Id.
There are a number of factual and procedural
distinctions between Bowers and the case at bar. First,
in Bowers, the sanctioned lawyers were actively
representing parties in the case in which they were
sanctioned. “[Wjhen a court imposes a sanction on an
attorney” it is “exercising its inherent power to regulate
the proceedings before it.” Nisus Corp. v. Perma-Chink
Sys., Inc., 497 F.3d 1316,1319 (Fed Cir. 2007). Unlike in
Bowers, the court was not criticizing Tung's professional

15a
conduct in an effort to regulate the proceedings before
it. As Tung acknowledges, at the time of the judge's
criticism, he was no more than a subpoenaed “fact
witness/'* (Am. Com pi. 11 63.) Tung presents no case law
suggesting that an attorney has a right to due process
because he was criticized by a judge at a time when he
was not practicing before that judge.
Second, the Boivers attorneys apparently sought
to be heard on the district court's sanctions shortly after
they were imposed. See Bowers v. NCAA, No. 97-2600,
200*5 WL 5155198 (Mar. 21,2005 D.N.J.) (sanctioning the
Bowers attorneys), rev'd, 475 F.3d 524 (3d Cir. 2007).
Here, as the State observes, Tung moved to be heard
with respect to these alleged sanctions more than six
years after the state courts* findings. (Am. Compl. fH
87-88; Defs/ Moving Br. 8.) Again, Tung cites no
authority for the proposition that a state court violates
due process by refusing to allow a non-party to be heard
years after a finding that may have damaged the nonparty's professional reputation.
Third, Tung has not directed the Court to
statements finding that he engaged in sanctionable
conduct. True, as Tung notes, the State court found that
Mrs. Fou “was being manipulated/’ (Hr'g Tr. 71:11-15),
and that there was “a fraud upon the Court,” (Sept. 12,
2012 Hr'g Tr. 71:4-7). But Tung does not direct the Court
to language in which State judges held that Tung
engaged in this conduct. Indeed, taking these statements
in context, a reader could just as easily conclude that the
Court was condemning Mr. Fou's conduct throughout
the divorce proceedings. The Court takes note of other
statements in the 2012 state court hearing transcript
setting aside the divorce judgment where the court
found “there’s a complete failure ... to have independent
counsel and there's an illusion of independent counsel,

16a
which is grossly misleading on its face/'’ (Sept. 12, 2012
Hr’g Tr. 70:9-12.) Although this language likely did apply
to Tung, the state court did not, however, hold that
Tung’s conduct in this regard was “sanctionable,” let
alone make an explicit ruling sanctioning Tung for these
failings. Cf Bowers, 475 F.3d at 544-45.
The Third Circuit has found that a court does not
impose sanctions when it makes a mere “judicial
admonishment” or “judicial criticism” of an attorney.
Venesevich v. Leonard, 378 F. App’x 129, 131 (3d Cir.
2010). In Venesevich, in the course of making a ruling on
the merits of a case, a district court wrote a footnote
rebuking plaintiffs attorney for plagiarism in a brief. Id.
The Court of Appeals held that this statement did not
amount to a sanction. Id. at 131. The court noted that
“the district court action in this case differs materially
from the one in Bowers.” Id. at 130. The court reasoned
that all the district court had done was make an
•observation, if a highly critical one, about the attorney's
conduct in the course of its opinion. Id. at 131. Thus,
there was no ruling formally sanctioning the attorney,
nor a holding that it intended to sanction the attorney, or
even a specific finding that the attorney's conduct was
sanctionable. Id. Thus, in Venesevich, there was no
sanction under Bowers requiring notice and opportunity
to be heard.
The New Jersey Superior Court's statements
here more closely resemble those of ■ the court in
Venesevich than in Bowers. Here, the Superior Court
described and criticized some of Tung's conduct in the
context of its decision on the merits of the issue before
it. The Court acknowledges that the Superior Court's
criticisms were serious, especially with regard to its
suggestion that Tung failed to provide Mrs. Fou with
independent counsel. (See Sept. 12, 2012 Hr'g Tr. 64:11-

17a
65:4, 69:19-70:12.) Unlike in Bowers, however, the
Superior Court did not formally sanction Tung in any
way, nor did it make an express factual finding that the
conduct was sanctionable. Rather, the court only
generally discussed Tung's actions in the context of
deciding the merits of the issue before it. Thus, the court
did not undertake any of the actions that Bowers held
could be a sanction, and rather only offered the type of
judicial criticism that both Bowers and Venesemch held
was insufficient to be a sanction. Indeed, federal courts
have routinely rejected attorney-plaintiffs’ claims along
the lines of those brought by Tung. See, e.g., Nisus Corp.,
497 F.3d at 1321 (holding that “a finding of inequitable
conduct is insufficient to confer appellate jurisdiction
over an appeal by [an] aggrieved attorney”); Reach v.
Cnty. of Schenectady, 593 F.3d 218, 225 (2d Cir. 2010)
(finding that there were no sanctions where “the district
court's comments were in the nature... of routine judicial
commentary or criticism” (internal quotation marks
omitted)). Accordingly, the Court finds that Tung has
not alleged a constitutional violation because he has not
alleged that he was sanctioned without notice and
opportunity to be heard.
2. Tung Does Not Allege That a Violation of Federal
Law Is Continuing
Even if Tung established that the New Jersey
state courts criticized him to the point of sanctioning
him, he would still need to establish that the
constitutional violation was ongoing. Christ the King
Manor, 730 F.3d at 318 (“Plaintiffs can ... bring suit
against state officers, but their remedies are limited to
those that are designed to end a continuing violation of
federal law”). Courts have described the “inquiry into

18a
whether the complaint, alleges an ongoing violation of
federal law” as “straightforward.” Surinav. S. River Bd.
of Educ.y No. 17-2173, 2018 WL 3617970, at *6 (D.N.J.
July 30,2018). Here, Tung's Amended Complaint fails to
allege that the State's constitutional violation is ongoing.
Surina is instructive. There the plaintiff had a
series of long-running disputes with local school officials
regarding her child's care and education. Id. at * 1-3. The
disagreement culminated in the school district sending a
social worker to plaintiff s home to check on the child. Id.
at *3. Plaintiff alleged that the visit was retaliation for
the past disputes and an abuse of process creating an
ongoing violation of her constitutional rights. Id. at *6.
The court found Ex Parte Young inapplicable because
the complaint only plausibly alleged that the “isolated”
initial visit by the social worker violated the
Constitution, not that there was an ongoing violation of
federal law. Id. The court further noted that there was
“no reason to believe that such conduct... will repeat in
the future.” Id. Other cases in the District of New Jersey
have come to similar conclusions in a variety of factual
situations. See, e.g., Rich v. New Jersey, No. 14-2075,
2015 WL 2226029 (D.N.J. May 12,2015) (holding that Ex
Parte Young was not satisfied because there was no
ongoing violation of federal employment law where
plaintiffs were already terminated); Dinoia v. Gumbo,
No. 12-03175, 2015 WL 6739114 (D.N.J. Nov. 4, 2015)
(finding no ongoing constitutional violation where the
plaintiff only alleged a single prior illegal arrest); see also
Treistman v. McGinty, 804 F. App'x 98, 100 (2d Cir.
2020) (holding that there was no ongoing constitutional
violation where plaintiffs assertions that there would be
future due process violations in court proceedings were
“speculative”).

19a
Similarly, here, Tung only alleges isolated prior
proceedings in which he was not allowed to be heard. He
does not allege that that proceeding is ongoing. In fact,
the State has afforded Tung notice and opportunity to be
heard regarding the ethical concerns at issue in the Fou
divorce proceedings. For example, Tung participated in
Mrs. Fou's subsequent malpractice suit and in related
attorney disciplinary proceedings, the latter of which
was ongoing at the time he filed his Amended Complaint.
(Defs.’ Moving Br. 2-3.) Aside from the past isolated
proceedings in which Tung's arguably untimely motion
to intervene was overruled, there is no allegation in the
Amended Complaint that there are ongoing proceedings
in which Tung is not being heard. Nor does Tung “allege
any facts that plausibly showed (1) future proceedings
would likely occur and (2) that such proceedings would
be accompanied by any due process violations.”
Treistman v. McGinty, 804 F. App'x 98,100 (2020). Thus,
Tung does not state any constitutional injury that is
ongoing.
Finally, courts have also held that the continuing
effects of an isolated, prior constitutional violation do not
constitute an ongoing constitutional violation. See, e.g.,
Jemsek v. Rhyne, 662 F. App'x 206, 211 (4th Cir. 2016)
(finding that while it may be unfortunate from plaintiffs
perspective that a medical board's disciplinary findings
have “continuing consequences[,] ... invoking those
effects does not transform past state action into an
ongoing violation’ ”). As in Jemsek, the fact that Tung
alleges that he is still being harmed by the existence of
the divorce court judgment in the public record does not
demonstrate an ongoing violation under Ex PaHe
Young. Tung asks the Court to remove the
“unconstitutional decisions or opinions from the public
domain,” thus at least implying an argument that his

20a
constitutional rights are being continuously violated by
the ongoing existence of the opinion. (Am. Compl. 1109.)
But this allegedly ongoing injury is similar to the medical
board actions at issue in Jemsek. Fundamentally, Tung's
constitutional claim is that he was denied due process in
a past proceeding that is now complete and final. The
mere fact that the judgment emanating from the
proceeding still has some diffuse effects does not change
that fact.
IV. CONCLUSION
For the foregoing reasons, the Court finds that
Tung's procedural due process claims are barred by the
Eleventh Amendment and do not'properly fall within the
Ex Parte Young exception to Defendants' immunity to
suit. Thus, the Court will dismiss Tung's Amended
Complaint with prejudice.

21a
Filed 11/10/20
UNITED STATES DISTRICT COURT DISTRICT
OF NEW JERSEY
Civil Action No. 19-871 (MAS) (TJB)
ORDER
KEVIN KERVENG TUNG, Plaintiff,
v.
STUART RABNER, in his official capacity as Chief
Justice of the Supreme Court of the State of New
Jersey, et al.,
Defendants.
This matter comes before the Court upon
Defendants Stuart Rabner, Chief Justice of the New
Jersey Supreme Court, Glenn A. Grant, Administrative
Director of the New Jersey Courts, and Carmen
Messano, Presiding Judge of the New Jersey Superior
Court, Appellate Division’s ("Defendants'") Motion to
Dismiss Plaintiff Kevin Kerveng Tung's ("’Plaintiff’)
Amended Complaint. (ECF No. 30.) Plaintiff opposed.
(ECF No. 31.) For the reasons set forth in the
accompanying Memorandum Opinion, and for good cause
shown,
IT IS on this 10th day of November 2020
ORDERED that:
Defendants' Motion to Dismiss (ECF No.
1.
30) is GRANTED.

22a
MICHAEL A. SHIPP
UNITED STATES DISTRICT JUDGE

23a
Filed 01/19/20
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
(609) 989-2040
CHAMBERS OF TONIANNE J. BONGIOVANNI
UNITED STATES MAGISTRATE JUDGE
U.S. COURTHOUSE
402 E. STATE STREET, RM 6052
TRENTON, NJ 08608
January 17,2020
LETTER ORDER
Re: Tung v. Superior Court of New Jersey
Civil Action No. 19-871 (FLW)
Dear Parties:
On November 26, 2019, the District Court granted
Defendant’s Motion to Dismiss and denied Plaintiffs
cross-motions for injunctive relief and declaratory
judgment. (Docket Entry No. 17). The Court peimitted
Plaintiff to file a Motion to Amend the Complaint within
thirty days of the Order. Id. at 11. Plaintiff filed his
timely Motion to Amend the Complaint which is now
pending before this Court. (Docket Entry No. 18).
Plaintiffs motion seeks to change the caption in this
matter to read:
Stuart Rabner (intended to be the Chief Justice of
the Supreme Court of New Jersey), Glenn A.

24a
Grant, (intended to be the Acting Administrative
Director if the New Jersey Courts), Carmen
Messano (intended to be the Presiding Judge for
Administration for the Appellate Division of the
Superior Court of New Jersey), and John Doe and
Jane Doe, the individuals who are appointed to be
in charge of the managing and supervising of the
administration of the Superior Court of New
Jersey and who have similar official duties or ■
capacities and whose names are unknown to the
Plaintiff.
Id. Defendant does not oppose Plaintiffs motion.
Pursuant to FED. R. CIV. P. 15(a)(2), leave to amend the
pleadings is generally granted freely. See Foman v.
Davis, 371 U.S. 178,182 (1962); Alvin v. Suzuki, 227 F.3d
107, 121 (3d Cir. 2000). Nevertheless, the Coui*t may
deny a motion to amend where there is “undue delay, bad
faith or dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments
previously allowed, undue prejudice to the opposing
party by virtue of allowance of the amendment, [or]
futility of the amendment.” Id. However, where there is
an absence of undue delay, bad faith, prejudice or futility,
a motion for leave to amend a pleading should be liberally
granted. Long v. Wilson, 393 F.3d 390,400 (3d Cir. 2004).
The Court does not find that Plaintiffs motion is the
product of undue delay, was made in bad faith, or will
prejudice the Defendant. Pursuant to the liberal
amendment standards set out in FED. R. CIV. P. 15,
Plaintiffs motion is GRANTED. Plaintiff is directed to
separately file his amended complaint pursuant to this
order by January 27,2020.

25a
IT IS SO ORDERED.
The Clerk of the Court is directed to terminate Docket
Entry No. 18.
s/ Tonianne J. Bongiovanni
TONIANNE J. BONGIOVANNI
United States Magistrate Judge

26a
Filed 11/26/19
*NOT FOR PUBLICATION*
UNITED STATES DISTRICT COURT
Filed 11/26/19
DISTRICT OF NEW JERSEY
Civil Action No.: 19-00871 (FLW)(TJB)
OPINION
KEVIN K. TUNG, ESQ.,
Plaintiff,

vs.

SUPERIOR COURT OF NEW JERSEY,
Defendant.
WOLFSON, Chief Judge:
Plaintiff Kevin K. Tung (“Plaintiff' or “Tung”), a
licensed New Jersey at,orneyl proceeding pro se, alleges
that Defendant, the Superior Court of New Jersey
(“Defendant” or the “State”) violated his Fourteenth
Amendment Due Process rights during a series of legal
disputes stemming from Plaintiffs representation of a
client in a divorce action. Defendant moves to dismiss
Plaintiffs claims under Federal Rule of Civil Procedure
12(b)(1) based on Eleventh Amendment Sovereign
Immunity, the Hooker-Feldman doctrine, and the
Younger abstention doctrine. Plaintiff opposes the

27a
motion. For the reasons set forth below, Defendant's
Motion to Dismiss is GRANTED. Plaintiff may file a
motion for leave to file an Amended Complaint, with the
proposed Amended Complaint attached, within thirty
days of the Order accompanying this Opinion and assert
claims against substitute defendant(s), as set forth
herein-2
I. FACTUAL BACKGROUND AND
PROCEDURAL HISTORY
For* the purposes of this motion, the relevant facts
are derived from Plaintiffs Complaint and the
documents attached thereto and assumed as true.
This matter arises from Plaintiffs representation
of one spouse in a no-fault divorce (the “Divorce Action”)
in the New Jersey Family Court in the spring of 2009.
ECF No. 1, Complaint (“Compl”) at 1(10. During his
representation of the client, Plaintiff reviewed a
property settlement agreement, drafted by the couple in
their native Mandarin, and he prepared an English
translation of the document. Id. at 1111. Plaintiff then
initiated the divorce proceedings on behalf of his client,
and at the culmination of the proceeding, the property
settlement agreement was incorporated into the parties'
Final Judgment of Divorce. Id. at 1J.11. Plaintiff alleges
that unbeknownst to him, there were four Mandarin
versions of the property settlement agreement, and he
was only provided with one. Id.
In 2011, two years after the conclusion of the
Divorce Action, Plaintiffs former client moved to set
aside the Final Judgement of Divorce, arguing that the
property settlement agreement prepared by Plaintiff
differed substantially from the Mandarin agreement. Id.
at H H13-14. Represented by new counsel, Plaintiffs

28a
former client allegedly testified before the trial court
that her husband had been the one to hire Plaintiff, and
as such, Plaintiff represented both the husband and the
wife in the Divorce Action; the former client also accused
Plaintiff of deliberately omitting terms from the
Property Settlement Agreement to benefit her husband.
Id. at 1MI13-14, 26-28. Plaintiff testified, pursuant to a
subpoena, as a fact witness in that proceeding, but was
not permitted to sit in on the entire hearing, call
witnesses, conduct cross-examination, or otherwise
participate in the litigation. Id. at U147-48. The client
successfully vacated the Property Settlement
Agreement, and the family court's decision was upheld
on appeal. See Compl., Ex. 2, September 12, 2012
Transcript and Decision Vacating the Final Divorce
Decree (the “Family Court decision”); ECF No. 13,
Plaintiffs Declaration in Opposition to Motion to Dismiss
Complaint and In Support of Cross-Motion (“Tung
Decl.”), Ex. I, July ,2, 2016 Decision of the New Jersey
Appellate Division (the “Appellate Division Opinion”).
In defending against the adverse rulings, Plaintiff
argues that in both proceedings, his former client failed
to divulge that Plaintiff was only provided one of the four
relevant Mandarin agreements. Id. at TJTJ13-14. In
Plaintiffs view, the client's accusations were merely a
guise to escape the terms of the property settlement
agreement, spite her ex-husband, and obtain funds from
Plaintiff by laying the groundwork for a subsequent
malpractice claim. Id. at
26-28.
. Nonetheless, Plaintiffs former client instituted a
successful legal malpractice action against him in the
New Jersey Superior Court. Id. at H 67-75, 70.
Furthermore, the New Jersey Appellate Division,
reviewring the Divorce Action, referred Mr. Tung to the
Office of Attorney Ethics for further investigation of his

29a
wrongdoing during the divorce proceeding. Id. at K66. At
the time Plaintiff filed the instant Complaint, the
attorney-ethics proceeding was still ongoing. Id.
Subsequently, Plaintiff moved to intervene in the thencompleted appeal from the Divorce Action, to set aside
the Appellate Divisions’ July 2016 decision. Id. at |72.
On November 30, 2018, the Appellate Division denied
Plaintiffs motion. Id. at %72. Thereafter, on December
18, 2018, Plaintiff also moved to intervene in the thencompleted family court proceeding to set aside the state
court’s September 12, 2012 decision vacating the Final
Divorce Decree. Id. at 1173.
After unsuccessfully attempting to challenge the
completed state court proceedings, on January 21, 2019,
Plaintiff filed the instant declaratory judgment action
against the Superior Court of New Jersey pursuant to 28
U.S.C. §2201. Plaintiff alleges that his substantive and
procedural due process rights were violated by the trial
court decision vacating the Final Divorce De’cree and the
subsequent decision of the New Jersey Appellate
Division, because he was a non-party and was never
given an opportunity to present a defense. Id. at H46.
Furthermore, Plaintiff alleges that the New Jersey
Superior Court violated his due process rights by
precluding him from intervening in either proceeding.
Id. As a result, Plaintiff was allegedly unable to obtain a
full, fair, and impartial trial in the subsequent
malpractice proceeding. Id. at 179.s
Defendant now moves to dismiss this action
alleging lack of subject matter jurisdiction based on
Eleventh Amendment Sovereign Immunity, and the
Rooker-Feldman doctrine. See ECF No. 12-4, Def. Br. at
3. Defendant further argues that, even if subject-matter
jurisdiction exists, this Court should refrain from acting
pursuant to the Younger abstention doctrine. Id.

30a
In opposition to Defendant’s motion, Plaintiff
cross-moved for declaratory judgment, preliminary
injunction, and permission to amend the complaint. See
Tung Decl.
II. STANDARD OP REVIEW
A. Federal Rule of Civil Procedure 12(b)(1)
Federal Rule of Civil Procedure 12(b)(1) permits
the Court to dismiss a proceeding for lack of subjectmatter jurisdiction. See Fed. R. Civ. P. 12(b)(1). This
includes cases where Eleventh Amendment immunity
bars the plaintiffs claims, as the Court of Appeals for the
Third Circuit has noted that “the Eleventh Amendment
is a jurisdictional bar which deprives federal courts of
subject matter jurisdiction.” Blanciak v. Allegheny
Ludlum Corp., 77 F.3d 690, 693 n.2 (3d Cir. 1996) (citing
Pennhurst State Sch. & Hosp. v. Haldeinnan, 465 U.S.
89, 98-100, 1 (1984)). Once a Rule 12(b)(1) challenge is
raised, the plaintiff bears the burden of demonstrating
the existence of subject matter jurisdiction. See McCann
v. Newman Irrevocable Trust, 458 F.3d 281,286 (3d Cir.
2006). A Rule 12(b)(1) motion to dismiss is treated as
either a “facial or factual challenge to the court’s subject
matter jurisdiction.” Gould Electronics, Inc. v. United
States, 220 F.3d 169, 176 (3d Cir. 2000). Under a facial
attack, such as here, the movant challenges the legal
sufficiency of the claim, and the court considers only “the
allegations of the complaint and documents referenced
therein and attached thereto in the light most favorable
to the plaintiff.” Id.
III. ANALYSIS A. Eleventh Amendment Sovereign
Immunity

31a
The Eleventh Amendment provides that “[t]he
judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by citizens of another state, or by citizens or
subjects of any foreign state.” U.S. Const, amend. XI.
The Amendment affords states and state entities
immunity from suits brought by citizens in federal court,
regardless of whether legal or equitable relief is sought.
See Pennhurst State School & Hosp., 465 U.S. at 89,100101; see also Thorpe v. New Jersey, 246 F. App’x 86, 87
(3d Cir. 2007) (“The Eleventh Amendment of the U.S.
Constitution protects a state or state agency from a suit
brought in federal court by one of its own citizens
regardless of the relief sought....”).
The New Jersey Superior Court is indisputably a
component of the State of New Jersey and is entitled to
the protections of the Eleventh Amendment. See
Robinson v. New Jersey Mercer County Vicinage- '
Family Div., 514 F. App'x 146, 149 (3d Cir.
2013)(explaining that county courts are “clearly a part of
the state of New Jersey,” thus, “both the court itself and
its employees in their official capacities were
unconsenting state entities entitled to immunity under
the Eleventh Amendment”) (citing Benn v. First
Judicial Dist. of Pa., 426 F.3d 233,240 (3d Cir. 2005)); see
also Dongon v. Banar, 363 F. App’x. 153, 156 (3d Cir.
2010)(“state courts, its employees, and the judges are
entitled to immunity under the Eleventh Amendment
because they are part of the judicial branch of the state
of New Jersey, and therefore considered ‘arms’ of the
state.”). Accordingly, the New Jersey Superior Court is
not subject to suit, unless an exception to sovereign
immunity applies.

32a
Exceptions to sovereign immunity apply primarily in
three circumstances “(1) congressional abrogation, (2)
waiver by the state, and (3) suits against individual state
officers for prospective injunctive and declaratory relief
to end an ongoing violation of federal law."
Pennsylvania Fed'n of Sportsmen's Clubs, Inc. v. Hess,
297 F.3d 310, 323 (3d Cir. 2002).
Here, Plaintiff argues that the State has waived
its immunity because 1) the family court and New Jersey
Appellate Division’s denials of his motions to intervene
constitute a waiver of sovereign immunity. Tung Decl f
8. In that regard, Plaintiff avers that on October 2,2018,
he requested permission from Carmen Messano, one of
the Appellate Division’s presiding judges, to file a
motion to intervene. Id. at 10. In his letter, Plaintiff
requested that “[i]n the event, the Court declines to
accept my filing of the Motion to Intervene, please issue
an Order so that the undersigned can continue to
exhaust the State Court’s remedy.” Id. at ^[10; see also
Compl. Ex. H, Plaintiffs Letter to the Honorable
Carmen Messano. On November 29,2018, the Appellate
Division issued an Order denying the motion to
intervene. Tung Decl. Ull; see also Compl., Ex. 15,
Appellate Division Order dated November 29, 2018. In
Plaintiffs view, the denial constitutes a limited or partial
waiver of sovereign immunity. Tung Decl. 111(11-12.
Furtheimore, Plaintiff alleges that absent federal court
jurisdiction, Plaintiff will have no remedy at law or
equity because he has been repeatedly denied access to
the Superior Court of New Jersey and Plaintiff has
exhausted his state judicial remedies. Id. at H12.
Plaintiffs specious contention .that the State has
unwittingly consented to suit and waived sovereign
immunity by acquiescing to his demand that he be
permitted to “continue exhausting the State Court’s

33a
remedy” is unavailing. Plaintiff insists that the language
“to exhaust the State Court’s remedy” cannot be
interpreted “to mean anything other than to go to
federal court.” See PI. Reply Br. at- 3-4. Plaintiff is
incorrect. As an initial matter, in this instance, a state
court judge cannot unilaterally waive sovereign
immunity and consent to suit on behalf of the judiciary.
See Coll. Sav. Bank v. Florida Prepaid. Postsecondai'y
Educ. Expense Bd., 527 U.S. 666, 675 (1999)( explaining
that waiver will be found where “the State voluntarily
invokes [Federal] jurisdiction, or else if the State makes
a clear declaration that it intends to submit itself to our
jurisdiction, (citation and internal quotation marks
omitted)). Furthermore, even if the State did execute a
limited waiver of sovereign immunity, such a waiver
would not necessarily subject the State to suit in this
Court. When a state consents to a waiver of sovereign
immunity, that consent “is construed narrowly and
exists only where the State makes a ‘clear declaration’
that it intends to submit itself’ to a court's jurisdiction.
Bennett v. City of Ail. City, 288 F. Supp. 2d 675, 680
(D.N.-J. 2003)(quoting Coll. Sav. Bank., 527 U.S. 666,
675-76 (1999)). The State’s alleged consent does not
satisfy that exacting standard. Plaintiffs request could
very easily have been interpreted as one seeking leave
to appeal to the Supreme Court of New Jersey or to file
a suit seeking a declaratory judgment in State court.
Assuming, arguendo, that the State consented to suit by
denying Plaintiffs motion to intervene, there is no
indication that it was consenting to suit in federal court,
rather than one of its own courts. Ritchie v. Cahall, 386
F. Supp. 1207,1208 (D.NJ. 1974)(“it is well settled that
even when a state consents to suit in its own courts, it
does not follow that a similar suit may be maintained in
the federal courts.”). Accordingly, Plaintiffs claims

34a
against the New Jersey Superior Court are barred by
the Eleventh Amendment and are dismissed pursuant to
Federal Rule of Civil Procedure 12(b)(1).'1
Because 1 find that dismissal for lack of subject
matter jurisdiction is appropriate, 1 need not address
Defendant's remaining contentions regarding the
Rooker-Feldman and Younger' abstention doctrines.
Furthermore, because Plaintiffs claims are dismissed,
Plaintiffs cross-motions for injunctive relief and
declaratory judgment are denied.
Even if Plaintiff were to assess the adequacy of
Plaintiffs proposed amendment, Plaintiffs amendment
would be futile. Under the Ex Parte Young doctrine,
Eleventh Amendment immunity is waived when officers
of a state are sued for prospective injunctive relief to end
an ongoing violation of federal law. Pa Fed'n of
Sportsmen's Clubs, Inc., 297 F.3d at 323; see also Ex
Parte Young, 209 U.S. 123,159-60 (1908). In order for the
Ex Paii# Young exception to-be applicable, “[t]he relief
sought must be prospective, declaratory, or injunctive
relief governing an officer's future conduct and cannot be
retrospective, such as money damages.” MCI Telecomm,.
Corp. v. Bell Ail. Pennsylvania, 271 F.3d 491, 506 (3d
Cir. 2001). To determine whether application of the
doctrine is appropriate, “a court need only conduct a
straightforward inquiry into whether, [the] complaint
alleges an ongoing violation of federal law and seeks
relief properly characterized as prospective.”
Pennsylvania Fed'n of Sportsmen's Clubs, Inc., 297
F.3d at 323 (quoting Verizon Maryland, Inc. v. Public
Sei'vice Commission of Maryland, 5353 U.S. 635, 645
(2002)).
However, it is not clear that the Ex PaHe Young
doctrine is applicable to Plaintiffs proposed amended
claims. As an initial matter, Plaintiffs requested relief is

35a
not wholly prospective, because he seeks to have this
Court decree that the state court judgments are
unconstitutional. See Rich v. New Jersey, No. 14-2075
FLW, 2015 WL 2226029, at *9 (D.N.J. May 12,
2015)(finding that the Ex Parte Young doctrine was
inapplicable because Plaintiffs were “in sum, asking for
a declaration from this Court that the conduct allegedly
done by Defendants was discriminatory.”); Heine v.
Comm'rofTheDep'tof Cmty. Affairs of the State of New
Jersey, No. 2:11-5347, 2016* WL 7042069, at *7 (D.N.J.
Dec. 1, 2016)(“Even a claim that nominally seeks
injunctive or declaratory relief will not circumvent the
Eleventh Amendment prohibition if, in its actual
substance, it seeks retrospective relief'). Thus,
Plaintiffs proposed amended claim seeking to vacate the
state court orders would not fall within the scope of Ex
Parte Young. Furthermore, Young does not apply if,
“although the action is nominally against individual
officers, the state is the real, substantial party in interest
and the suit in fact is against the state.” MCI Telecomm.
Corp.t 271 F.3d at 506. “A plaintiff may not evade or
circumvent a defendant’s assertion of sovereign
immunity by purposefully omitting the state as a formal
party to a complaint,” as Plaintiff seeks to do here.
Chisolm v. McManimon, 275 F.3d 315, 322-23 (3d Cir.
2001). A state is a party-in-interest when “the judgment
sought would expend itself on the public treasury or
domain, or interfere with the public administration, or if
the effect of the judgment would be to restrain the
Government from acting or to compel it to act.” Fitchik
v. New Jersey Transit Rail Operations, Inc., 873 F.2d
655,659 (3d Cir. 1989). Critically, Plaintiff has not alleged
that the “Presiding Administration Judge of the New
Jersey Superior Court” had any direct involvement in
the alleged wrongful conduct. Ostensibly, Plaintiffs

36a
basis for substitution is solely his or her role in judicial
administration. Thus, even if Plaintiff substituted the
presiding judge, in his or her official capacity, as a
defendant in this action, Eleventh Amendment
sovereign immunity would nonetheless bar Plaintiffs
claims. See Heine, No. 2:11-5347,2016 WL 7042069 at *8
(dismissing Plaintiffs’ claims against the Commission of
the New Jersey Department of Community Affairs
because Plaintiffs’ requested relief, changes to the
State’s housing policies, did not “seek the cessation of
unlawful conduct, but revision of the State's policy
choices regarding housing” and ran “afoul of the rule that
a federal court lacks jurisdiction in a suit brought by an
individual to compel a state to act.”).
However, Plaintiff also seeks to enjoin the
“Presiding Administration Judge of the Superior Court
of New Jersey” to implement pertinent due process
procedures to protect non-party attorneys like Plaintiff
from criticism in an opinion or order, without due
process. In that regard, it may be that Plaintiffs
potential amendment, regardless of the merits, seeks the
type of forward-looking relief permitted under Young.
See Am. Exp. Travel Related Sews. Co. v. SidamonEristojf, 755 F. Supp. 2d 556, 568 (D.N.J. 2010), affd sub
nom. Am. Exp. Travel Related Sews., Inc. v. SidamonEristoff, 669 F.3d 359 (3d Cir. 2012)(“it has long been
established by the Supreme Court that the Eleventh
Amendment does not preclude lawsuits against state
officials in their official capacities to enjoin violations of
federal law even where the remedy would enjoin
enforcement and implementation of an official state
policy”). However, in Constitution Party of
Pennsylvania v. Cortes, 824 F.3d 386, 396 (3d Cir. 2016),
the Third Circuit clarified that in order for the Ex parte
Young exception to apply, the officer “must have some

37a
connection
with
the
enforcement
of
the
[unconstitutional] act” and explained that “even ‘entirely
ministerial’ duties can be sufficient under Young,
because ‘the inquiry is not into the nature of an official's
duties but into the effect of the official’s performance of
his duties on the plaintiffs rights.”’ (internal citations
omitted). Here, Plaintiff has not identified who is the
“the Presiding Administration Judge for the New Jersey
Superior Court,” let alone alleged what role that
individual plays in the judicial administration and, even
more tellingly, whether that individual has the ability to
implement the policy changes Plaintiff seeks.
Accordingly, Plaintiffs motion for leave to amend his
Complaint in order to substitute the Presiding
Administration Judge for the New Jersey Superior
Court is denied. While the Court has difficulty
envisioning a viable party or a viable claim 5, I will
nonetheless, permit Plaintiff thirty days to file a motion
for leave to file an amended complaint.
IV. CONCLUSION
For the reasons set forth above, Defendants’
Motion to Dismiss is GRANTED. Plaintiffs claims
against the Superior Court of New Jersey are dismissed
with prejudice. Because Plaintiffs claims are dismissed,
his cross-motions for injunctive relief and declaratory
judgment are DENIED. Plaintiff may file a motion for
leave to file an Amended Complaint within thirty days of
the Order accompanying this Opinion.
Date: November 26,2019.
Is/ Freda L. Wolfson
Hon. Freda L. Wolfson
U.S. Chief District Judge

38a
Footnotes
1 At the time his complaint was filed, Plaintiff was
in the midst of attorney ethics proceedings, and the
current status of his license is unclear.
2 Plaintiff is forewarned that he proceeds with his
Rule 11 obligations in mind and that his proposed
Amendment Complaint will be reviewed for futility.
3 While the Court does not assess the merits of
Plaintiffs Constitutional claims in this Opinion, the
Court is compelled to note that those claims, as pled, are
questionable at best.
4 Furthermore, Congress has not abrogated the
State’s sovereign immunity pursuant to 42 U.S.C. §1983.
See Quern v. Jordan, 440 U.S. 332, 342 (1979) (holding
that Section 1983 does not override a state's Eleventh
Amendment immunity). Although Plaintiff does not
expressly reference Section 1983, that is ostensibly the
statutory vehicle for Plaintiffs due process claims.
5 In the posture of this motion, I cannot
definitively express an opinion as to the ultimate merits
of Plaintiffs claims, and whether Plaintiff can plausibly
state a claim that the State’s current procedures violate
the Fourteenth Amendment.

39a
Date Filed: 07/28/2021
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-3348
KEVIN TUNG, on behalf of himself and all others
similarly situated,
Appellant
v.
SUPERIOR COURT OF NEW JERSEY; STUART
RABNER, Chief Justice of the Supreme Court of New
Jersey; GLENN A. GRANT, Acting Administrative
Director of the New Jersey Courts; CARMEN
MESSANO, Presiding Judge for Administration for the
Appellate Division; JOHN/JANE DOE, Administrators
of the New Jersey Superior Court
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 3:19-cv-00871)
District Judge: Honorable Michael A. Shipp
Submitted Under Third Circuit L.A.R. 34.1(a)
on July 9, 2021
Before: AMBRO, JORDAN, and BIBAS, Circuit
Judges
JUDGMENT

*

40a
This cause came to be considered on the record
from the United States District Court for the District of
New Jersey and was submitted under L.A.R. 34.1(a) on
July 9,2021.
On consideration whereof, it is now ORDERED
and ADJUDGED that the District Court's judgment
entered on November 12, 2020, is hereby AFFIRMED.
Costs will be taxed against Appellant. All of the above in
accordance with the Opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: July 28, 2021

41a
Date Filed: 08/27/2021
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-3348
KEVIN TUNG, on behalf of himself and all others
similarly situated,
Appellant
v.
SUPERIOR COURT OF NEW JERSEY; STUART
RABNER, Chief Justice of the Supreme Court of New
Jersey; GLENN A. GRANT, Acting Administrative
Director of the New Jersey Courts; CARMEN
MESSANO, Presiding Judge for Administration for the
Appellate Division; DOE JOHN/JANE, Administrators
of the New Jersey Superior Court
(D.C. No. 3:19-cv-00871)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, and McKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY
SHWARTZ,
KRAUSE,
JR.,
RESTREPO, BIBAS, PORTER, MATEY, and
PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the
above-captioned case having been submitted to the
judges who participated in the decision of this Court and
to all the other available circuit judges of the circuit in
regular active service, and no judge who concurred in the

42a
decision having asked for rehearing, and a majority of
the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc is DENIED.
By the Court,
s/Stephanos Bibas
Circuit Judge
Dated: August 27,2021
JK/cc: All Counsel of Record

f
43a
Filed 11/26/19
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civil Action No.: 19-00871 (FLW)(TJB)
ORDER
KEVIN K. TUNG, ESQ.,
Plaintiff,
vs.
SUPERIOR COURT OF NEW JERSEY,
Defendant.
THIS MATTER having been opened to the
Court by John Francis Regina, Esq., counsel for
Defendant the Superior Court of New Jersey
(“Defendant”), on a Motion to Dismiss, pursuant to
Federal Rule of Civil Procedure 12(b)(1); it appearing
that Plaintiff Kevin K. Tung (“Plaintiff *), pro se, opposes
the motion and has filed a cross-motion seeking a
declaratory judgment, injunctive relief, and leave to
amend his Complaint; the Court having considered the
submissions of the parties without oral argument,
pursuant to Fed. R. Civ. P. 78; for the reasons set forth
in the Opinion filed on this date, and for good cause
shown,
IT IS on this 26th day of November, 2019,
ORDERED that Defendant’s Motion to Dismiss
[ECF No. 12] is GRANTED and Plaintiffs claims

L

\

1
44a
against Defendant are dismissed with prejudice; it is
further
ORDERED
Plaintiffs
cross-motion
for
injunctive relief, declaratory judgment, and leave to
amend his Complaint in order to substitute a defendant
[ECF No. 13] is DENIED; it is further ORDERED that
Plaintiff is directed to file a motion for leave to amend his
complaint within thirty (30) days of this Order or this
case will be closed.
/s/ Freda L. Wolfson
Freda L. Wolfson
U.S. Chief District Judge

1

i

